       Office of Inspector General
       Railroad Retirement Board

    SEMIANNUAL REPORT TO THE CONGRESS

                 April 1 - September 30, 2002




Major Audit Efforts

Monitoring of Investment Activities (p. 4)
Review of Overall Control Environment (p. 5)
Evaluation of Information Security (p. 7)

Investigative Activities

Statistical Accomplishments (p.18)
Railroad Employer Fraud (p. 20)
Retirement Benefit Fraud (p. 22)
Sickness and Unemployment Insurance Fraud (p. 25)
Disability Benefit Fraud (p. 28)
                       Railroad Retirement Board-Office of Inspector General

                                Semiannual Report to the Congress

                                 April 1, 2002 - September 30, 2002





                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2


SIGNIFICANT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 4


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10

Audits: Management Decisions and Implementation . . . . . . . . . . . . .                                 16


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         19

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               20

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . .                     31

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     32


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . .                                       33


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34

(B) OIG Reports Issued Involving Questioned Costs and

    Recommendations That Funds Be Put To Better Use . . . . . . . . . .                                   35

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . .                                37

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    38

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . .                           45



All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





                        EXECUTIVE SUMMARY

This Semiannual Report describes the activities of the Office of Inspector
General (OIG) at the Railroad Retirement Board (RRB) during the six month
period ending September 30, 2002.

The OIG continued to monitor the implementation of the Railroad Retirement
and Survivors’ Improvement Act. Efforts focused on the setup activities of the
National Railroad Retirement Investment Trust, an independent board of seven
trustees responsible for investments that support railroad benefit programs.
The Office of Audit also performed an evaluation of the RRB’s control
environment and the fiscal year 2002 evaluation of the agency’s information
security. Other audits examined document imaging activities, safeguards for
the disclosure of social security numbers, the valuation of Railroad Retirement
Act accounts receivable, and the operations of the agency’s Audit and
Compliance Section, the unit that conducts audits of railroad employers.

The Office of Investigations (OI) achieved 29 convictions, 20 indictments and
informations, and $2,656,646 in recoveries, restitutions, fines, civil damages,
and penalties. During this reporting period, OI concluded an investigation of a
railroad employer that identified underreporting of employees; the employer has
agreed to pay a total of $1.4 million in underpaid railroad employer payroll taxes
to the RRB.




                                         -1-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





                             INTRODUCTION

Office of Inspector General

The Office of Inspector General (OIG) has the responsibility for promoting
economy, efficiency and effectiveness in the programs of the Railroad
Retirement Board. The office is also charged with the detection, prevention and
elimination of fraud, waste and abuse in agency operations. To accomplish its
mission, the OIG conducts audits, management reviews, and investigations.

The Railroad Retirement Solvency Act of 1983 established the Office of
Inspector General at the Railroad Retirement Board by naming the agency as
“one of such establishments” identified under Section 2 of the Inspector General
Act of 1978. The Inspector General Act Amendments of 1988 added the RRB
to the list of agencies covered by the Inspector General Act.

In fiscal year 2002, the OIG had 54 employees and an operational budget of
$6,261,000. The organization has three major components: the immediate
office of the Inspector General, the Office of Audit, and the Office of
Investigations. The office conducts operations from two locations: the
headquarters of the Railroad Retirement Board in Chicago, Illinois, and an
investigative field office in Philadelphia, Pennsylvania.




                                        -2-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





Railroad Retirement Board

The Railroad Retirement Board (RRB) is an independent agency in the
executive branch of the Federal government that is headed by a three member
Board appointed by the President of the United States, with the advice and
consent of the Senate. One member is appointed upon the recommendation of
railroad employers, one is appointed upon the recommendation of railroad labor
organizations, and the third, who is the Chair, is appointed to represent the
public interest.

The agency administers comprehensive retirement-survivor and unemployment-
sickness insurance benefit programs for the nation's railroad workers and their
families, under the Railroad Retirement and Railroad Unemployment Insurance
Acts. The RRB also has administrative responsibilities under the Social
Security Act for certain benefit payments and Medicare coverage for railroad
workers.

During fiscal year (FY) 2001, the RRB paid $8.4 billion in retirement and
survivor benefits to approximately 700,000 beneficiaries, while net
unemployment and sickness insurance benefits of $95 million were paid to
almost 40,000 claimants. The RRB also administers its own Medicare Part B
program through a single carrier, Palmetto GBA. The carrier made payments
totaling $762 million to provide medical insurance benefits for 590,000
beneficiaries.




                                        -3-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





                       SIGNIFICANT ISSUES

} Monitoring of Investment Activities

} Review of the Overall Control Environment

} Evaluation of Information Security




                         INVESTMENT ACTIVITIES

In the semiannual report for the period ending March 31, 2002, the OIG
reported the enactment of the Railroad Retirement and Survivors’ Improvement
Act (RRSIA) on December 21, 2001. This legislation resulted in major changes
in the structure and financing of railroad retirement benefits, as provided by the
Railroad Retirement Act (RRA). The legislation established the National
Railroad Retirement Investment Trust (Trust) and an independent board of
seven trustees with the responsibility for the investments used to support RRA
benefit programs. All trustees had been named as of May 15, 2002.

The Office of Inspector General continued its monitoring efforts of the agency’s
investment activities during this semiannual period to ensure the statutory
obligations of the RRA and RRSIA are met. Most activity has focused on the
initial setup of the Trust, with the appointment of trustees, a chief investment
officer, an initial investment manager, an independent accounting firm to audit
the Trust’s financial statements for fiscal year 2002, and the establishment of


                                         -4-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





investment policy objectives and guidelines. The Trust has provided detailed
and timely information on these actions to agency management.

The RRB has established a tentative schedule for fund transfers to the Trust.
The agency will, however, maintain a reserve of trust funds to pay short-term
benefits and administrative expenses. The initial transfers will be in cash;
future transfers will be made as obligations or cash, consistent with the terms of
the statute.

The OIG has recommended that the RRB be very proactive in its monitoring,
especially in these early stages of the Trust.



    EVALUATION OF THE RRB’S CONTROL ENVIRONMENT

In the audits of the agency’s financial statements since 1993, Arthur Andersen
LLP, KPMG Peat Marwick, and the Office of Inspector General have cited the
overall control environment of the Railroad Retirement Board as a material
weakness. As a result of the findings, Board management directed agency
reorganizations to address the identified deficiencies and to change the
administrative structure. Agency management believed the weaknesses had
been eliminated and did not include the overall control environment as a
material weakness in the Federal Managers’ Financial Integrity Act Reports for
fiscal years 1997 through 2001.

OIG auditors examined the seven factors that affect the control environment of
a Federal agency, as determined by the General Accounting Office. Their
review identified inadequacies related to three of the seven factors: the
communication of management’s philosophy, the agency’s organizational



                                         -5-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





structure, and the delegation of authority and responsibility. As a result, they
concluded that the weaknesses resulted from the implementation of the three
member Board governing body that prevents a cohesive management
philosophy, whose members are involved in daily operations, and one that
fragments responsibility.

Because the Board Members represent different constituencies, they have
divergent views and tend to function as chief executives, with different
management philosophies and operating styles. There is no recognizable
agency wide philosophy or operating style.

In 1999, the Board approved creation of an Executive Committee, under the
direction of a Senior Executive Officer, and comprised of six top agency
executives. The Committee was directed to oversee day-to-day operations,
make recommendations to the Board Members on policy and issues, promote
coordination and communication, and address problems concerning cross-
organizational internal control issues. However, the creation of the Committee
does not address the overall control problems. Each member of the Committee
reports directly to the Board; the fundamental internal relationships remain
unchanged.

Auditors stated the current structure is inherently flawed because it lacks a
single chief executive officer. The Board continues to be significantly involved
in daily operations, approving travel plans and vouchers of key executives,
requisitions over $100,000, personnel appointments above the GS-13 level,
and personnel appointments at any level when four or more similar positions
are being filled. Auditors also identified instances in which the agency had
experienced difficulties in resolving financial accounting and reporting issues
resulting from the lack of an effective organizational structure.



                                         -6-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





The auditors recommended that the three Board Members limit their
participation in agency affairs, focus on high level policy-setting, and vest
responsibility for daily management to a newly created Chief Executive Officer.
The Board Members disagreed with the review findings and the auditors’
recommendation. The Members stated that the agency is well run and that the
organizational weaknesses described in the OIG report do not exist.

FISCAL YEAR 2002 EVALUATION OF INFORMATION SECURITY

In accordance with the provisions of the Government Information Security
Reform Act (GISRA), the RRB prepared and submitted an action plan, including
target dates for implementation, to remedy any significant deficiencies in
information security. As of June 2002, the original 15 planned corrective
actions had been increased to 16, and the agency had reported full
implementation in six areas. The OIG disagreed that sufficient action has been
completed for the weakness concerning the need for a formal security training
and awareness program.

The OIG conducted a review of the RRB’s information security during FY 2001,
and identified significant deficiencies in program management and access
controls, making the agency’s information security program a source of material
weakness in internal control over financial reporting. The agency’s
Management Control Review Committee agreed with the OIG’s findings. As a
result, the agency is preparing an expanded action plan.

To fulfill GISRA requirements for an annual Inspector General security
evaluation, auditors recently completed an evaluation of the RRB’s information
system security program and practices during FY 2002. They monitored
agency implementation efforts for recommended actions contained in prior OIG



                                        -7-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





audit reports as well as evaluations performed by independent contractors. The
agency’s Bureau of Information Services (BIS) has implemented, or plans to
implement, most of the recommendations for improved information security
resulting from the earlier reviews. Of 102 items, BIS personnel have
implemented 50, rejected 10 and targeted the remaining 42 for completion in
the next 18 months.

It is important to note that the major changes that will be required to eliminate
significant deficiencies will take some time. Basic security awareness training
was provided to most employees but fell short of providing an ongoing program
of security awareness or enhancing the skills of those involved with the design
and implementation of the security program. Similarly, action to strengthen
access controls is largely dependent on the reconfiguration of hardware and
software that support mainframe and end-user computing. These changes can
only be implemented as part of the larger long-term planning process. In
addition, the impact of the recently appointed Security Officer and the newly
created Risk Management Group may not become evident for months or years.

During this review, auditors also identified weaknesses related to service level
agreements concerning data backup, the lack of backup for a Local Area
Network server, and the lack of documentation for decisions related to the
disaster recovery contract. BIS management has agreed to take action to
address the problem areas.

On September 16, 2002, in accordance with Office of Management and Budget
(OMB) Memorandum 02-09, the Executive Summary reports from the RRB and
the OIG on information security at the agency were forwarded to OMB.




                                         -8-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





                            OFFICE OF AUDIT

The Office of Audit (OA) conducts reviews to promote economy, efficiency, and
effectiveness in the administration of RRB programs, and to detect and prevent
waste, fraud, and abuse in such programs. Through the Inspector General, the
office ensures that the Board Members and Congress are informed of current
and potential problems in the RRB’s programs and operations, and advised of
recommended improvements, as well as the status of corrective actions. OA
examines programmatic, financial, and administrative aspects of RRB
operations.

During this reporting period, OA issued its fiscal year 2002 evaluation of the
RRB’s information security, as required by the Government Information
Security Reform Act, as well as an evaluation of the agency’s control
environment. Auditors also performed reviews of document imaging activities,
controls over the disclosure of social security numbers, valuation of Railroad
Retirement Act accounts receivable, and the operations of the RRB’s Audit and
Compliance Section, the unit that conducts external audits of railroad
employers.

In addition to the reports described under the Significant Issues section of this
report, summaries of other audits and reviews are contained in the following
pages.




                                         -9-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





Review of the Audit and Compliance Section in the RRB’s Bureau of
Fiscal Operations

The RRB’s Audit and Compliance Section (ACS) conducts external audits of
employers to ensure compliance under the Railroad Retirement Act (RRA) and
the Railroad Unemployment Insurance Act (RUIA), and verifies the accuracy of
reported compensation and contributions. Although the section does not have
the authority to audit taxes under the Railroad Retirement Tax Act, its staff
reviews the compensation amounts on which these payroll taxes are based.
ACS also gathers, verifies and analyzes the activities of employers and
employees in support of the agency’s coverage determinations. This work
ensures that employees who work in the railroad industry receive the retirement
and insurance benefits of coverage.

In calendar year 2001, railroads reported nearly $28.5 billion in total
compensation to the RRB, and for fiscal year 2001, they paid approximately
$4.7 billion in railroad retirement taxes and $50.7 million in RUIA contributions.

The auditors’ assessment of the effectiveness of ACS indicated the section is
generally performing its work in accordance with Board approved operating
procedures. However, changes are needed in conducting audits of railroad
employees to ensure more frequent audits of the larger railroads and consistent
compliance with auditing standards and procedures. Improvements are also
necessary to ensure timely coverage decisions, accurate reporting of the status
of coverage cases, effective use of reports that assess the status of coverage
cases, and the adequate documentation of procedures.




                                        -10-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





The Chief Financial Officer generally agreed with the report recommendations
and will direct that corrective actions be taken. However, he did point out that
the ability to increase the number of employer audits and the audit frequency
was dependent on the availability of additional staff resources.

Review of the RRB’s Controls Over the Access, Disclosure and Use of
Social Security Numbers by Third Parties

To address concerns about perceived sharing of personal information and
occurrences of identity theft, the General Accounting Office (GAO) studied how
and to what extent agencies use individuals’ Social Security Numbers (SSNs),
and what safeguards are employed for records and documents. As a result of
GAO’s findings at other Federal agencies, OIG auditors performed an
assessment of RRB controls over such information and found that
improvements should be made.

The RRB’s policy includes notification to all individuals who apply for benefits
that their SSNs may be disclosed. The review disclosed that the RRB made
legal and informed disclosures of SSNs to Federal and state agencies,
contractors, insurance companies, universities, researchers and railroads. The
RRB also released SSNs of deceased beneficiaries to non- government entities
and non-contractors.

Auditors recommended that the agency strengthen some controls over
contractors’ access and use of SSNs and controls over access to SSNs
maintained in the RRB’s databases. An unannounced inspection of one
private contractor that provides medical opinions for 8,000 RRB disability
claims each year disclosed non- compliance with the terms of the contract. The
contract provided that the firm would use a locked, dedicated suite for


                                        -11-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





RRB work, provide fireproof cabinets and maintain an inventory control system
with up-to-the-minute status on each claim file. Although none of these
provisions were being met at the time of the inspection, the contractor took
immediate action to correct all identified problems. The RRB has agreed to
conduct periodic reviews of the contractor’s facility during calendar year 2002.

The RRB also used the services of another contractor to produce and mail over
700,000 annual tax statements and approximately 300,000 service and
compensation records to RRB beneficiaries in fiscal year 2001. The RRB’s
inspection of the contractor’s location was limited and did not include review of
all security procedures. Auditors recommended, and program managers
concurred, that additional steps must be taken to ensure all information is
adequately protected.

Auditors also recommended that improvements be made in controls over
access to SSNs maintained in agency databases. Each year, managers are
asked to review a security audit and provide feedback on the access needs of
the individuals in the report. However, the report lists only RRB employees.
The Chief Information Officer agreed that all users, including non-RRB
employees, should be included in future reports.

Valuation of Railroad Retirement Act (RRA) Accounts Receivable

The RRB’s balance sheet for the fiscal year ended September 30, 2001
reported net receivables due from the public of $43.4 million, of which 73%
were established under the provisions of the RRA. This review examined the
valuation of the RRA debt as reported.




                                       -12-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





Auditors selected a random sample of 1,000 RRA accounts receivable and
estimated the value of each sample item on an individual basis, and estimated
that 28% of the sample would not be fully collected. A projection of the sample
results to the population of all RRA program debt with an uncollected balance
as of September 30, 2001, estimated the value of this debt at $30.4 million.
This figure compared favorably with the $30.2 million reported in the agency’s
financial statements. Auditors concluded that the RRB’s allowance for
uncollectible accounts reduced the gross amount of RRA receivables to a
reasonable amount at the close of fiscal year 2001. However, they could not
ensure that the methodology used to compute the allowance would produce
reliable results in subsequent years because changes in RRB debt recognition
and record maintenance policies may affect the accuracy of future results.

Auditors identified several control weaknesses in the agency’s automated
systems that support debt recovery and resulted in receivables recognized
before a debt had been incurred, erroneous receivables, and inconsistencies
between the debt recovery and benefit payment records. Recommendations
were issued to program managers to modify systems and procedures to
eliminate the problems. The Chief Financial Officer has agreed to exclude any
prematurely recorded receivables from the RRB’s September 30, 2002
financial reports, and to modify the Automated Receivables, Reclamations and
Credits system to eliminate erroneous receivables. The Office of Programs will
address the remaining weakness concerning inconsistencies between records
by conducting an analysis of the cases identified during the OIG review.




                                       -13-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





Follow-up Review of Document Imaging - Railroad Unemployment
Insurance Act (RUIA) Programs

The RRB has used document imaging to retain sickness insurance applications
and beneficiary tax statements since the early 1990s. In mid-1999, the agency
replaced the original system with more modern technology, and in March 2000,
completed expansion of the system to allow wider access to selected
information within the agency. The OIG conducted a review of the RUIA
document imaging system and reported that the RRB needed to strengthen
controls to ensure the reliability of the system. Seventeen recommendations
for system improvement were provided to program managers to improve
system reliability and to reduce the risk of improper destruction of paper
documents.

Auditors performed this follow-up review to determine if the current system
contains completed, legible electronic facsimiles of documents, and if the
original paper documents are retained in accordance with applicable laws and
regulations. Although program managers had taken action to address previous
weaknesses in these areas, problems remain. Current procedure is not
adequate to ensure all pages of a document are scanned, and that all scanned
pages are legible. It does not specifically state that a paper document must be
compared to the resulting image. Responsible staff were unaware that pages
containing only a date stamp must be scanned.

In addition, current controls do not ensure that the original paper documents
are retained for mandated time periods. The agency’s Records Disposition
Authority provides that certain documents and attached correspondence be
retained for six years and three months (long-term retention) after the close of
the benefit year, and any documents not specifically designated for long-term
retention may be destroyed after 60 days (short-term retention).

                                        -14-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





The auditors’ review of 482 original paper documents scanned in October
2001 identified approximately 2% that had been incorrectly scheduled for short-
term, rather than long-term, retention. Auditors also determined that all
documents could not be retrieved directly from the appropriate filing location.

All recommended corrective action, including updating operating procedures
and providing additional training to all staff involved in document imaging work,
has been completed by program management.




                                        -15-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





       AUDITS: MANAGEMENT DECISIONS AND IMPLEMENTATION

The Office of Inspector General maintains the open audit follow-up system to
track the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management
decisions and corrective actions for all audit recommendations.



Management Decisions

Recommendations requiring a management decision on April 1, 2002                  1
New recommendations issued during this period
  pending a management decision                                                   0
Previous recommendations for which a management
  decision was made                                                               1
Number of recommendations pending a management decision
  on September 30, 2002                                                           0

Corrective Actions

Prior recommendations requiring action on April 1, 2002                           99
New recommendations issued during this period                                     22
Recommendations for which corrective actions
   were completed from April 1, 2002 - September 30, 2002                    - 49
Recommendations pending final action on September 30, 2002                     72




                                        -16-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





                   OFFICE OF INVESTIGATIONS


The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
primary objective is to identify, investigate, and refer for prosecution and
monetary recovery action, cases of waste, fraud and abuse in RRB programs.
Through its investigations, OI also seeks to prevent and deter program fraud.
In order to maximize the effect of its resources, OI continues to pursue
cooperative investigative activities and coordination with other Inspectors
General and law enforcement agencies, which include the Social Security
Administration-Office of Inspector General, the Federal Bureau of Investigation,
the U.S. Secret Service, the Internal Revenue Service, and the Postal
Inspection Service.

During this reporting period, OI identified a potential agency systemic issue
concerning annuitants who return to work in the railroad industry, but fail to
notify the RRB. Annuitants cannot receive an annuity for any month in which
they return to service for a railroad employer. The Railroad Retirement Act
requires railroad employers to report creditable compensation and service for
each employee annually to the RRB. The agency uses computer matches that
compare a listing of annuitants and employees with service months reported by
railroad employers to identify violators. However, OI identified three annuitants
who returned to work for a railroad employer, but were not identified by the
computer matches. The annuitants were overpaid approximately $300,000
over nine years, and are currently being prosecuted for not reporting their
return to railroad service to the RRB. OI forwarded the information to the
Director of Programs to determine why the computer matches failed to identify
the violators. No response has been received to date.


                                        -17-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                         April 1, 2002 - September 30, 2002




                                                       04/01/02 -
INVESTIGATIVE ACCOMPLISHMENTS                          09/30/02        FY 2002

Convictions                                                     29               53

Civil Judgements                                                12               36

Indictments/Informations                                        20               37

Investigative Recoveries                               $   147,106     $   229,664

Restitutions and Fines                                 $   568,745     $   853,864

Civil Damages and Penalties                            $ 1,940,795     $ 2,146,591

Potential Economic Loss Prevented (PELP)                         0                0

Community Service Hours                                        290            698

Disciplinary/Administrative Action                               1                1

Civil Complaints                                                 4                7
Criminal Complaints                                              3                5

Arrests                                                          2                3

Subpoena Service:
 Inspector General                                               9               13
 Federal Grand Jury                                             22               40
 Trial                                                           0                9

Program Fraud Civil Remedies Act Referrals                       1                1

U.S. Attorney Referrals                                        115            231




                                       -18-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                              April 1, 2002 - September 30, 2002



INVESTIGATIVE CASES

During this semiannual period, OI opened 110 investigations and closed 144
cases. The major sources of case referrals are illustrated below.

             RRB District Offices - 17%

                                                               Computer Matches - 10%



                                                                 OIG Developed - 7%



  RRB Headquarters - 51%
                                                                  Hotline - 10%



                                                            Others - 5%




OI's current caseload totals 470 criminal matters, representing approximately
$13 million in fraud against the RRB.
                                               Sickness - 23 cases
                                                   $98,000

      Unemployment - 147 cases                                       Railroad Employers -10 cases
         $618,000                                                            $3,212,000



                                                                       Retirement - 112 cases
                                                                            $4,926,000




        Disability - 125 cases                                       Spouse/Dependent - 21 cases
            $1,807,000                                                      $656,000
                                                            Representative Payee - 18 cases
                                                                  $252,000
                                                   Other - 14 cases
                                                      $1,119,000


                                            -19-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





REPRESENTATIVE INVESTIGATIONS

                        Railroad Employer Fraud

OI investigates cases involving false reporting by railroad employers. Such
cases are often worked jointly with the Internal Revenue Service under the
direction of the Department of Justice Tax Division attorneys. These cases can
involve complex fraud schemes which result from collusion among railroad
employers, retired railroad workers and third party employers. These schemes
have a substantial impact on the agency’s trust funds because the retirees are
receiving benefits to which they are not entitled and, at the same time, the
employers are not submitting contributions to the trust funds as required.

By law, railroad employers are required to advise the agency of changes in
their operations, organization or ownership that would affect their status for
coverage under the Railroad Retirement and Railroad Unemployment
Insurance Acts. The OIG has found that, due to a minimal policing of
employers by the agency, it is very easy for employers to assign employees to
affiliated business entities and report them as being covered under the Federal
Insurance Contributions Act. Some employers have transferred employees to
temporary employment agencies or payroll servicing companies to carry out the
fraud.

OI continues to review the results of audits conducted by the agency’s Audit
and Compliance Division to identify fraud matters related to railroad
employers. OI currently has 10 open cases involving allegations related to
railroad employers. The description of a railroad employer investigation that
was concluded during this reporting period follows.


                                       -20-
             Railroad Retirement Board-Office of Inspector General

                      Semiannual Report to the Congress

                       April 1, 2002 - September 30, 2002





•	   Based on a referral from the RRB’s Audit and Compliance Division
     (ACD), OI initiated an investigation of a railroad employer in Kansas.
     ACD was conducting an audit of railroads owned and operated by the
     employer, as well as coverage issues related to two companies that
     conduct railroad-related business. An allegation had been made that the
     employer was not properly reporting service and compensation for its
     employees to the RRB. After the audit was completed, ACD received
     information that the companies were paying wages under FICA,
     although the employees were performing railroad-related work. The
     case was then referred to OI.

     The OI investigation found that many of the employees of one railroad-
     related business were performing track maintenance, locomotive/car
     repair and administrative functions almost exclusively for railroads
     controlled by the railroad employer. These employees were, as alleged,
     reported under FICA, not the Railroad Retirement Act, as required
     because the work performed was for covered railroads owned and
     operated by the employer.

     When interviewed by OI special agents, the employer stated he and his
     family owned the railroad companies performing the cited railroad work.
     As a result, the employer had under reported as many as 145
     employees in one year. During calendar years 1996 through 2000, the
     employer had underreported $6.2 million in compensation. When the
     case was presented, the U.S. Attorney’s Office and the employer
     reached an agreement that the individuals working for the two railroads
     should have been considered covered under the RRA. The employer
     signed a consent judgement and agreed to pay the RRB a total of $1.4
     million of underpaid railroad employer payroll taxes for calendar years
     1996 through 2000. These funds will be paid over a five year period.

                                     -21-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





                   Retirement Benefit Investigations

RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
Treasury checks, or the illicit conversion of U.S. Treasury electronic fund
transfers, by someone other than the authorized RRB annuitant. During this
reporting period, OI obtained twelve convictions and eight civil judgements for
retirement fraud. Defendants received one year and one day imprisonment, 15
years probation, one year house arrest, and were ordered to pay $438,707 in
restitution, $159,534 in penalties and $222,287 in damages. The RRB will
recover $143,587 in overpayments as a result of OIG investigations of
retirement benefit programs.

Examples of recent retirement cases follow.

•	       OI conducted another investigation referred by the RRB Huntington,
         West Virginia District Office when no verification could be obtained for
         a change of address request from an RRB annuitant.

         Special agents determined that the retirement annuitant had died in
         August 1994, but his niece had failed to notify the RRB. From
         September 1994 through January 1999, she used 53 months of
         annuity benefits issued to her uncle. She endorsed the checks with
         her uncle’s name, and stated that she was the power of attorney for
         him. In January 1999, she sent a change of address form to the RRB
         allegedly on behalf of her uncle. The agency notified the OIG, and
         special agents interviewed the woman who admitted she had, in fact,
         forged the checks.



                                       -22-
           Railroad Retirement Board-Office of Inspector General

                    Semiannual Report to the Congress

                     April 1, 2002 - September 30, 2002





     On August 14, 2002, a Civil Judgement was entered against the
     niece, and she was ordered to repay $64,662 to the RRB. She must
     also pay interest in the amount of 1.67% per year. A lien has been
     filed that will attach to any real property that she may acquire in the
     future.

•	   OI agents initiated an investigation based on a referral from the RRB
     Atlanta District Office that reported several unsuccessful attempts to
     locate an annuitant. The agents determined that the annuitant had
     died on December 29, 1986, but no notification was sent to the RRB.

     As a result, the RRB continued to issue retirement benefits for ten
     years after the annuitant’s death. The funds were electronically
     transferred into an account held jointly by the annuitant and his
     daughter. When interviewed, the daughter stated she thought her
     brother had notified the RRB about her father’s death. An analysis of
     bank records indicated that she had used the annuity funds to pay her
     personal obligations.

     On November 28, 2001, the daughter was indicted on charges of
     violating Title 18 U.S.C., Section 641, Theft of Government Funds, by
     a Federal Grand Jury. She subsequently requested a trial by jury.
     On February 22, 2002, a Federal jury found her guilty; she was later
     sentenced to six months of house arrest, five years probation, and
     ordered to make full restitution of $119,748 to the RRB.




                                   -23-
           Railroad Retirement Board-Office of Inspector General

                    Semiannual Report to the Congress

                     April 1, 2002 - September 30, 2002





•	   The RRB District Office in Philadelphia referred a case to the OIG
     concerning a woman who acted as a representative payee for her
     father. When she failed to respond to an inquiry concerning the
     location of her father, District Office personnel suspected the daughter
     had provided false information in order to receive benefits to which
     she was not entitled.

     OI agents conducted a preliminary investigation that revealed that the
     Social Security Administration (SSA) had suspended benefits to the
     RRB annuitant in August 1983. SSA also indicated that they did not
     receive any inquiries about their suspension action. A review of
     Medicare records revealed that the RRB annuitant had last utilized
     benefits in 1979.

     During an interview with OI special agents, the woman confessed that
     she had not reported the death of her father on August 5, 1982 to the
     RRB. She also confessed that she had a third party pose as her
     father during a congratulatory meeting with RRB District Office
     personnel for the annuitant’s 100th birthday in June 1993. In addition,
     the woman had filed false forms to the RRB and changed bank
     account information for direct deposits of the annuity funds. The
     investigation indicated an overpayment of $75,425.

     On April 8, 2002, a Judgement in a Criminal Case was entered
     against the woman for a violation of Title 18 U.S.C., Section 1343,
     Wire Fraud (one count), and she was sentenced to five years of
     probation and ordered to make restitution to the RRB in the amount of
     $8,475.




                                   -24-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





     Unemployment and Sickness Insurance Investigations

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud
involves individuals claiming and receiving UI or SI benefits while working and
receiving wages from an employer, in violation of Federal law. The primary
source of UI/SI fraud cases remains state computer matching programs that
compare RRB beneficiaries with individuals for whom wages have been
reported.

During this reporting period, OI obtained 29 convictions and 24 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, 38
years and seven months probation and seven months house arrest. They were
ordered to pay $164,471 in restitution, $126,554 in damages, $10,075 in fines,
$63,282 in civil penalties and to perform 290 hours of community service. The
RRB will also be able to recover an additional $38,546 as a result of OI
investigations.

Based on information developed from the state wage matching programs, the
RRB’s Sickness and Unemployment Insurance Division referred the cases
described below to OI for follow-up investigation. In all the cases, the initial
allegations indicated that the subjects had collected unemployment insurance
benefits while working for private employers.




                                        -25-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





•	        One referral concerned an unemployment claimant in Virginia who
          was collecting unemployment insurance benefits while employed.
          This individual had previously been arrested and/or convicted of
          heroin possession and larceny.

          Investigation indicated that, from April 15, 2000 through January 20,
          2001, the claimant received benefits while employed by three
          separate employers. He failed to reveal his employment to the RRB,
          collected benefits on 242 days while he was employed, and submitted
          21 false claims to the agency.

          On August 7, 2002, a Judgement in a Criminal Case was entered
          against the subject for a violation of Title 45 U.S.C., Section 359(a),
          Failure to Report Information to the RRB. He was sentenced to five
          years of probation and ordered to pay full restitution of $9,766 to the
          RRB.

     •	   OI initiated an investigation of another unemployment claimant in
          Arkansas who possibly claimed benefits while working as a driver for
          a private firm. OI special agents confirmed that the individual had
          claimed benefits in the same quarter that he was employed.

          The subject entered into a pre-trial diversion agreement with the U.S.
          Attorney’s Office for violations of 18 U.S.C., Section 1001, False
          Statements. He was ordered to make full restitution of $8,764 to the
          RRB and will be subject to 18 months of supervision.




                                        -26-
           Railroad Retirement Board-Office of Inspector General

                    Semiannual Report to the Congress

                     April 1, 2002 - September 30, 2002





•	   OI agents determined a third unemployment claimant in Nevada
     worked as a laborer for a casino while claiming benefits. When
     questioned, he stated he was using the money to assist family
     members in the Philippines.

     The claimant was indicted by a Federal Grand Jury on nine counts of
     18 U.S.C., Section 1001, Making Materially False, Fictitious or
     Fraudulent Statements to the U.S. Government. He pleaded guilty to
     a superceding information charging him with one count of 18 U.S.C.,
     Section 641, Theft of Public Money, for which he was sentenced to
     five years of probation, ordered to perform 40 hours of community
     service, and to make full restitution of $5,232 to the RRB.

•	   A state wage match with the State of Michigan identified an individual
     who worked while collecting sickness insurance benefits.
     Investigation revealed that the claimant had been employed as a
     diesel electrician until suffering a job injury. He subsequently filed for,
     and received, sickness benefits from the RRB. OI agents discovered
     that he also was employed as a cashier for a drug store chain, and
     had submitted 17 false claims for benefits. He was indicted by a
     Federal Grand Jury for violation of 18 U.S.C., Section 1001, Making
     False Statements. The U.S. Attorney’s Office subsequently filed an
     information for Theft of Government Funds. The claimant was
     sentenced to three months home confinement and three years of
     probation, and ordered to make $7,176 restitution to the RRB.




                                    -27-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





                         Disability Investigations

The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more
sophisticated schemes. During this reporting period, OI obtained three civil
judgements and seven criminal convictions for disability fraud. Defendants in
these cases were sentenced to six months imprisonment, eight months house
arrest, and 15 years probation. In addition, they were ordered to pay $157,909
in restitution, $4,000 in fines, and $125,720 in civil damages and penalties. An
additional $38,849 in overpayments will be recovered as a result of OI
investigations concerning disability fraud cases.

OI opened investigative cases based on a project conducted by the OIG’s
Office of Audit. Auditors reviewed claim files of RRB occupational disability
recipients and compared the information with social security histories to
determine if annuitants were employed while receiving disability benefits. An
RRB disability benefit is not payable for any month in which an annuitant earns
over $400 per month. Descriptions of two cases of this type follow.

•	       An RRB District Office in Illinois had issued a questionnaire to one
         annuitant inquiring if he had worked in any capacity since 1988; he
         responded that he had not. OI special agents conducted surveillance
         and observed the subject opening and closing an automobile detailing
         establishment daily as well as personally detailing cars. His business
         also performed significant work for a local car dealership.

         The special agents interviewed the claimant who admitted he had
         owned and operated the detailing business from 1988 through 1998.


                                       -28-
           Railroad Retirement Board-Office of Inspector General

                    Semiannual Report to the Congress

                     April 1, 2002 - September 30, 2002





     He also admitted to reporting the profits from his business under his
     wife’s social security number until their divorce. He then reported the
     income under his mother’s social security number. The income
     generated from his business totaled approximately $20,000 per year.

     The claimant pleaded guilty to two counts of violating 18 U.S.C.,
     Section 1001, Making False Statements and one count of 18 U.S.C.,
     Section 641, Theft of Public Money. He was sentenced to one year
     and one day in prison, two years probation and ordered to pay
     restitution of $130,407. In addition, the RRB terminated his benefits
     resulting in a savings of $367,389, the amount he would have
     received until eligible for full retirement benefits at age 65.

•	   OI agents investigated an individual in Michigan who had owned and
     operated a business with his wife. When filing an application for
     disability benefits, he claimed that the business operations had been
     turned over to his wife. The business had contracts with Amtrak to
     clean passenger cars at various sites across the United States.
     Interviews, grand jury subpoenas and surveillance of the company
     operations clearly indicated that the annuitant was actively involved in
     daily operations.

     Investigation also showed that he reported his earnings under his
     wife’s social security number. When confronted by OI special agents,
     the couple admitted that the husband was, in fact, responsible for
     management decisions, directing employees and negotiating
     contracts.




                                   -29-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002





        On September 12, 2002, he pleaded guilty to violation of 18 U.S.C.,
        Section 641, Theft of Government Funds, and was sentenced to two
        years probation and ordered to pay criminal restitution of $8,629 to
        the RRB, a fine of $2,000 and a special assessment of $100.

        He and his wife also signed a consent judgement with the U.S.
        Attorney’s Office, Eastern District of Michigan, that they violated Title
        31, Section 3729-3733, False Claims Act. They both agreed to repay
        $92,000 to the RRB in a civil judgement, in quarterly payments of
        $25,000 plus annual interest of 6%.

An example of a typical disability case is described below.

 •	     The RRB’s District Office in St. Louis referred a case involving an
        individual who was allegedly working for various employers while
        collecting RRB disability benefits. OI special agents conducted
        numerous interviews, analyzed bank records and determined the
        claimant was employed as a courier for private employers.

        In order to conceal his employment and continue to fraudulently

        collect RRB benefits, he used the social security numbers of his

        wife and daughter. He collected benefits from July 1997 through

        March 1999, resulting in the theft of $31,796 in government funds.

        He was indicted for violating 18 U.S.C. Section 1001, Making False

        Statements, and, on April 9, 2002, was sentenced and ordered to

        serve six months in Federal prison, to make full restitution to the RRB,

        and to serve two years probation. 





                                       -30-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





     AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

OI continues to pursue prosecution of cases under the Department of Justice's
Affirmative Civil Enforcement Program. This program involves "fast track" civil
prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
3729-3733, The Civil False Claims Act. This statute allows the government to
recover up to triple damages as well as $5,000 to $10,000 for each false claim
submitted.

The Department of Justice is frequently obtaining double damages through
these civil false claims prosecutions. The judgements obtained in these cases
also provide the agency with an efficient and effective basis to pursue their
collection activities.

The ACE Program continues to provide an efficient means to address fraud
against agency programs, particularly where the fraud losses are below the
financial guidelines for criminal prosecution. It also is an effective way to return
fraud losses to the RRB's trust funds and create a deterrent against future
fraud.

During this reporting period, a total of 7 civil judgements under the ACE
program were entered by Federal district courts which will result in the return of
$1,517,926 ($1,446,138 in damages and $71,788 in penalties) to the
government when the funds are collected.




                                        -31-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





                               HOTLINE CALLS

The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and
operations. The Hotline provides an open line of communication for individuals
to report suspected criminal activity, conflict of interest, mismanagement, and
waste of RRB funds.
                                                              04/01/02 -
                                                              09/30/02     FY 2002


 Total Contacts: (Telephone Calls and Letters)                     600      1,271


 Referred to: RRB-OIG, Office of Investigations                      20        49


 RRB Bureaus/Offices                                               276        652


 Other Federal Agencies                                              12        25


 RRB Medicare Carrier/Durable Medical Equipment
 Regional Carriers                                                   14        21


 Other (misdirected calls, follow up calls to agents,
 etc.)                                                             190        373


 Calls for which there was insufficient information to
 substantiate an allegation or to make a referral                    88       151



                                        -32-
                Railroad Retirement Board-Office of Inspector General

                         Semiannual Report to the Congress

                          April 1, 2002 - September 30, 2002





           LEGISLATIVE & REGULATORY REVIEW

The Inspector General Act requires the Inspector General to review existing
and proposed legislation and regulations relating to the programs and
operations of the agency, and to make recommendations in the semiannual
report concerning the impact on the economy and efficiency of the agency’s
administration of its programs and on the prevention of fraud and abuse.

During this reporting period, the agency amended its regulation concerning the
effective period for an application for an annuity or lump sum. The amended
regulation allows a spouse to file an early application for benefits along with the
employee’s application. This change positively impacts the economy and
efficiency of the administration of the agency’s programs.




                                        -33-
               Railroad Retirement Board-Office of Inspector General

                        Semiannual Report to the Congress

                         April 1, 2002 - September 30, 2002




APPENDIX A

                            REPORTS ISSUED

P	 Management Information Report - Evaluation of the Control Environment at
   the Railroad Retirement Board, August 1, 2002

P	 Follow-up Review of Document Imaging - Railroad Unemployment Insurance
   Act Programs, August 8, 2002

P Valuation of Railroad Retirement Act Accounts Receivable, August 19, 2002

P	 Review of the Railroad Retirement Board’s Controls Over the Access,
   Disclosure, and Use of Social Security Numbers by Third Parties,
   August 26, 2002

P	 Fiscal Year 2002 Evaluation of Information Security at the Railroad
   Retirement Board, August 27, 2002

P	 Review of the Audit and Compliance Section in the RRB’s Bureau of Fiscal
   Operations, September 17, 2002




                                       -34-
                    Railroad Retirement Board-Office of Inspector General

                             Semiannual Report to the Congress

                              April 1, 2002 - September 30, 2002




APPENDIX B

                 INSPECTOR GENERAL ISSUED REPORTS
                       WITH QUESTIONED COSTS

                                                            Questioned       Unsupported
                                              Number          Costs             Costs


A . For which no management decision
had been made by April 1, 2002                     0             0                0


B. Which were issued from April 1, 2002
through September 30, 2002                         0             0                0


Subtotals (A+ B)                                   0             0                0


C. For which a management decision was

made from April 1, 2002 through

September 30, 2002                                 0             0                0



(i) dollar value of disallowed costs                             0                0


(ii) dollar value of costs not disallowed                        0                0


D. For which no management decision had
been made by September 30, 2002                    0             0                0


Reports for which no management decision

was made within six months of issuance             0             0                0





                                            -35-
                    Railroad Retirement Board-Office of Inspector General

                             Semiannual Report to the Congress

                              April 1, 2002 - September 30, 2002





                INSPECTOR GENERAL ISSUED REPORTS

                   WITH RECOMMENDATIONS THAT

                    FUNDS BE PUT TO BETTER USE


                                                        Number               Dollar Value

A. For which no management decision had
been made by April 1, 2002                                1                   $ 520,000


B. Which were issued from April 1, 2002
through September 30, 2002                                0


Subtotals (A + B)                                         1                   $ 520,000


C. For which a management decision was
made from April 1, 2002 through
September 30, 2002                                        1                   $ 520,000


(I) dollar value of recommendations that were
agreed to by management                                   0


(ii) dollar value of recommendations that were
not agreed to by management                                                   $520,000


D. For which no management decision had
been made by September 30, 2002                           0


Reports for which no management decision
was made within six months of issuance                    0




                                                 -36-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                              April 1, 2002 - September 30, 2002



APPENDIX C

    REPORT ON RECEIVABLES, WAIVERS, AND RECOVERIES

The FY 1999 appropriations language for this office requires the reporting of
additional information concerning actual collections, offsets and funds put to better use
achieved as a result of Inspector General activities. Figures are to be provided for
each semiannual period and as a cumulative number.

Office of Audit

         Funds to be Put      Funds Agreed        Receivables                   Recoveries
Report   To Better Use       by Management       Established       Waivers       To Date

99-03    $     50,850         $     50,850        $ 50,850        $ 50,490         $    360
99-14    $     83,000         $     83,000*       $ 34,423                         $ 30,584
99-16    $ 48,000,000         $ 48,000,000
99-17    $ 11,000,000         $ 11,000,000
00-16    $    235,000         $    235,000                                         $ 253,846**

* This figure includes monies owed to the agency and overpayments which must be refunded.
**This figure represents returned payments credited to debtor accounts.

Office of Investigations

Recoveries realized by the RRB resulting from court ordered restitution and civil damages

October 1, 1998 - March 31, 1999                $ 344,465
April 1, 1999 - September 30, 1999              $ 511,190
October 1, 1999 - March 31, 2000                $ 495,402
April 1, 2000 - September 30, 2000              $ 542,732
October 1, 2000 - March 31, 2001                $ 457,015
April 1, 2001 - September 30, 2001              $ 533,341
October 1, 2001 - March 31, 2002                $ 403,384
April 1, 2002 - September 30, 2002              $ 382,459




                                                  -37-
                       Railroad Retirement Board-Office of Inspector General

                                Semiannual Report to the Congress

                                 April 1, 2002 - September 30, 2002




APPENDIX D - RRB MANAGEMENT REPORTS*

              MANAGEMENT REPORT ON FINAL ACTION

             ON AUDITS WITH DISALLOWED COSTS FOR

         THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2002


                                                                                   Disallowed
                                                          Number                     Costs

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                    0                         0

 B. Audit reports on which management
 decisions were made during the period.                      0                         0

 C. Total audit reports pending final action
 during the period. (A + B)                                  0                         0

 D. Audit reports on which final action was
 taken during the period.

 1. Recoveries

    (a) Collections                                          0                         0
    (b) Property                                             0                         0
    (c) Other                                                0                         0


 2. Write-offs                                               0                         0


 3. Total of 1 and 2                                         0                         0


 E. Audit reports needing final action at the                0                         0
 end of the period.



* The information contained in this section has been provided by RRB management.


                                                   -38-
                    Railroad Retirement Board-Office of Inspector General

                             Semiannual Report to the Congress

                              April 1, 2002 - September 30, 2002





       MANAGEMENT REPORT ON FINAL ACTION ON AUDITS

     WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE

     FOR THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2002


                                                                                    Funds to be put
                                                            Number                   to better use
 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                       4                    $ 59,537,141 *


 B. Audit reports on which management                           0                          0
 decisions were made during the period.


 C. Total audit reports pending final action
 during the period. (A + B)                                     4                    $ 59,537,141


 D. Audit reports on which final action was
 taken during the period.

 1. Value of recommendations implemented.                       1                    $   400,945

 2. Value of recommendations that
 management concluded should not or could not
 be implemented.                                                0                           0


 3. Total of 1 and 2.                                           1                    $   400,945


 E. Audit reports needing final action at the end
 of the period (C - D.3).                                       3                    $ 59,136,196


* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange:
Status of Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of
Supplemental Annuities;” $400,945 from Audit Report 00-12 ,”Review of Tier 1 Reductions for Other
Disability Benefits;” and $529,996 from Audit Report 01-11, “Review of the Quality of the Debt Recognition
and Collection Process for Railroad Retirement Act Overpayments.”

                                                    -39-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                 April 1, 2002 - September 30, 2002



    MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
    OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                AS OF SEPTEMBER 30, 2002
                                                   Funds to
                                      Disallowed   be put to         Reason action has not
        Report               Date       Costs      better use           been completed


Review of Quality          01/22/97     None          None      The remaining recommendation
Assurance Activities                                            will be addressed as the agency
(97-06)                                                         develops a long-term quality
                                                                assurance plan during FY 2003.

Review of Non-Priority     03/13/97     None          None      The Office of Programs hopes to
Correspondence                                                  finish evaluating options for
Handling (97-09)                                                correspondence tracking in FY
                                                                2003 in order to close the
                                                                remaining recommendation.

Review of Duplicate        07/31/97     None          None      Needed programming changes to
Postings of Railroad                                            suppress duplicate earnings
Compensation (97-19)                                            referrals are scheduled for
                                                                completion in FY 2003, which
                                                                should address the last open
                                                                recommendation.

Review of                  08/25/97     None          None      Preliminary tests of programming
Overpayments SSA                                                changes to automate non-death
Transfer Cases                                                  termination cases revealed the
(97-22)                                                         need for added modifications,
                                                                which have been requested.

Vested Dual Benefits       06/16/98     None          None      The agency will review the
Appropriations (98-15)                                          feasibility of benefit component
                                                                accounting as part of its overall
                                                                strategic planning process for
                                                                information technology.




                                               -40-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                              April 1, 2002 - September 30, 2002



    MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
    OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                AS OF SEPTEMBER 30, 2002

                                                    Funds to
                                    Disallowed      be put to         Reason action has not
        Report             Date       Costs         better use           been completed

Review of Computer       02/12/99     None              None     The Bureau of Information
Problem and Change                                               Services is analyzing a recent
Management Process                                               reorganization of the agency’’s
(99-05)                                                          help desk in order to address the
                                                                 remaining open recommendation.

Review of Railroad       09/21/99     None              None     The agency is making
Unemployment                                                     programming changes to automate
Insurance Act                                                    the reconciliation process for
Contributions (99-14)                                            unemployment insurance reports
                                                                 and payments in phases. Results
                                                                 from the initial phase will determine
                                                                 how quickly the overall project can
                                                                 be completed.

Financial Interchange:   09/28/99     None         $48,000,000   The agency continues to provide
Status of Prior                                                  information to the Social Security
Recommendations for                                              Administration in support of
Change (99-16)                                                   revising Financial Interchange
                                                                 calculations to reflect unrecovered
                                                                 overpayments.

Review of              09/30/99       None         $10,606,200   The agency requested additional
Supplemental Annuities                                           information on private pensions
(99-17)                                                          from some railroad employers and
                                                                 hopes to complete action on the
                                                                 remaining recommendations in FY
                                                                 2003.




                                                 -41-
                          Railroad Retirement Board-Office of Inspector General
                                   Semiannual Report to the Congress
                                    April 1, 2002 - September 30, 2002



     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF SEPTEMBER 30, 2002

                                                      Funds to
                                         Disallowed   be put to         Reason action has not
         Report                 Date       Costs      better use          been completed

Review of Internal            10/05/99     None          None      The agency purchased and
Controls Over Fixed                                                installed new software to improve
Assets (00-01)                                                     its fixed asset tracking system. It
                                                                   will be reviewed in conjunction with
                                                                   the agency’s next financial
                                                                   statement audit.

Information Systems           06/28/00     None          None      The agency has implemented nine
Security (INFOSEC)                                                 recommendations, and is working
Assessment Report                                                  to close out the remaining six.

Review of the RRB’s           08/09/00     None          None      The agency completed a
Compliance with the                                                preliminary review of computer
Critical Infrastructure                                            security plans and is in the process
Assurance Program                                                  of updating them for all systems to
(00-13)                                                            address the remaining open
                                                                   recommendation.

Review of the          08/11/00            None          None      Testing of system changes to
Processing of                                                      improve recovery of representative
Automated Receivables,                                             payee overpayments indicated a
Reclamations and                                                   need for further programming,
Credits (ARRC) System                                              which has been requested.
Referrals (00-14)

Review of Information         09/06/00     None          None      An evaluation of recent upgrades
Technology Contracts                                               to the agency’s wide-area network
(00-15)                                                            should close the remaining
                                                                   recommendation.




                                                  -42-
                     Railroad Retirement Board-Office of Inspector General
                              Semiannual Report to the Congress
                               April 1, 2002 - September 30, 2002



    MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
    OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                AS OF SEPTEMBER 30, 2002

                                                 Funds to
                                    Disallowed   be put to         Reason action has not
        Report             Date       Costs      better use          been completed

Review of Internal       09/29/00     None          None      Final action on the three remaining
Control Over Financial                                        open recommendations is
Accounting for Debt                                           contingent on completion of
Recoveries (00-16)                                            programming changes to
                                                              automated systems and
                                                              development of related
                                                              procedures.

Review of Document     11/17/00       None          None      The agency hopes to close the
Imaging - Railroad                                            remaining recommendation in FY
Unemployment                                                  2003, as backup capabilities for
Insurance Act Programs                                        local area network servers are
(01-01)                                                       being enhanced in stages.

Audit of the RRB’s       02/23/01     None          None      The Bureau of Information
FY 2000 Financial                                             Services is improving
Statements (01-03)                                            documentation for mainframe
                                                              problem reports/resolution to
                                                              address the remaining open
                                                              recommendation.

Timeliness of Desk Audit 06/28/01     None          None      The Bureau of Human Resources
and Vacancy                                                   has established timeliness goals
Announcement                                                  and is in the process of tracking
Processing by the                                             performance to close the remaining
Bureau of Human                                               recommendation.
Resources (01-08)

Site Security          07/20/01       None          None      The Bureau of Information
Assessment for the RRB                                        Services has closed out eight
                                                              recommendations, and is in the
                                                              process of addressing the four
                                                              remaining ones.


                                             -43-
                     Railroad Retirement Board-Office of Inspector General
                              Semiannual Report to the Congress
                               April 1, 2002 - September 30, 2002



    MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
    OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                AS OF SEPTEMBER 30, 2002

                                                   Funds to
                                      Disallowed   be put to         Reason action has not
        Report               Date       Costs      better use          been completed

Review of the RRB’s        08/07/01     None          None      The agency completed action on
Contract with                                                   four recommendations and plans to
Comprehensive Health                                            close the remaining one in FY
Service, Inc. For                                               2003.
Disability Examinations
Services (01-10)

Review of the Quality of   08/09/01     None       $ 529,996    The agency hopes to develop and
the Debt Recognition                                            implement added quality control
and Collection for RRA                                          measures in FY 2003 to address
Overpayments,                                                   the report’s recommendation.
(01-11)

Security Controls          08/17/01     None          None      The Bureau of Information
Analysis                                                        Services closed 30
                                                                recommendations and is currently
                                                                addressing the remaining 8.




                                               -44-
                   Railroad Retirement Board-Office of Inspector General

                            Semiannual Report to the Congress

                             April 1, 2002 - September 30, 2002




APPENDIX E - REPORTING REQUIREMENTS

Inspector General Requirements                                                               Page

Section 4(a)(2) - Review of Legislation and Regulations
                                        33
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies
                                4
Section 5(a)(2) - Recommendations With Respect to Significant Problems,

 Abuses, and Deficiencies
                                                                       4

Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented
                         8

Section 5(a)(4) - Matters Referred to Prosecutive Authorities
                                  18

Section 5(a)(5) - Instances Where Information Was Refused
                                   None

Section 5(a)(6) - List of Audit Reports
                                                        34

Section 5(a)(7) - Summary of Each Significant Report
                                            4

Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                35
Section 5(a)(9) - Statistical Tables on Management Decisions on
  Recommendations That Funds Be Put to Better Use                                               36
Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
  For Which No Management Decision Has Been Made                                             None
Section 5(a)(11) - Description and Explanation for Any Significant
  Revised Management Decision                                                                None
Section 5(a)(12) - Information on Any Significant Management Decisions
  With Which the Inspector General Disagrees                                                 None


Management Requirements


Section 5(b)(1) - Comments Deemed Appropriate
                                   Transmittal Letter
Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs
                        38
Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  39
Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          40




                                               -45-
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
